No. 20In the

Supreme Court of the United States
MAURICE MCGINNIS, BY HIS CONSERVATOR DERRICK K. JONES,
Petitioner,
v.
SONNY PERDUE, SECRETARY,
UNITED STATES DEPARTMENT OF AGRICULTURE, et al.,
Respondents.
On Petition for Writ of Certiorari to the United States
Court of A ppeals for the DC Circuit

PETITION FOR A WRIT OF CERTIORARI
Mario B. Williams
Counsel of Record
NDH LLC
44 Broad Street, NW, Suite 200
Atlanta, Georgia 30303
(404) 254-0442
mwilliams@ndh-law.com
John M. Shoreman
McFadden & Shoreman
1050 Connecticut Avenue, NW, Suite 500
Washington, DC 20036
(202) 772-3188
Counsel for Petitioner
297354

A
(800) 274-3321 • (800) 359-6859

QUESTION PRESENTED
Whether strict application of procedural deadlines by an Arbitrator under the guidelines
of the Consent Order in Pigford v. Glickman, 185 F.R.D. 82 (D.D.C. 1999) to an obviously
incompetent Claimant resulted in a fundamental miscarriage of justice and required an exercise
of the district court’s equitable jurisdiction where no provision was made in the Consent Order
authorizing an arbitrator to appoint a guardian ad litem or allowing an enforcement action to the
District Court prior to a final arbitration award?

i

PARTIES TO THE PROCEEDING
Maurice McGinnis, by his conservator, Derrick K. Jones is the Petitioner. Respondent is
Sonny Perdue, in his official capacity as Secretary of the United States Department of
Agriculture.

ii

RELATED PROCEEDINGS IN FEDERAL AND APPELLATE COURTS
Pigford, et al. v. Perdue, et al., No. 19-5023, United States Court of Appeals for the
District of Columbia Circuit. Judgment entered February 21, 2020.
Pigford, et al. v. Perdue, et al., No. 97-1978, United States District Court for the District
of Columbia. Judgment entered January 2, 2019.

iii

TABLE OF CONTENTS
QUESTION PRESENTED .............................................................................................................. i
PARTIES TO THE PROCEEDING ............................................................................................... ii
RELATED PROCEEDINGS IN FEDERAL
AND APPELLATE COURTS ..................................................................................................... iii
TABLE OF CONTENTS ............................................................................................................... iv
TABLE OF APPENDICES .............................................................................................................v
TABLE OF CITED AUTHORITIES ............................................................................................ vi
CITATIONS OF OPINIONS BELOW ...........................................................................................1
BASIS FOR JURISDICTION .........................................................................................................1
CONSTITUTIONAL PROVISION INVOLVED ...........................................................................1
INTRODUCTION AND STATEMENT OF THE CASE ...............................................................1
REASONS FOR GRANTING CERTIORARI ................................................................................5
1.

Competency Standards are Vital to the Fair
Administration of Justice .........................................................................................5

2.

Standards of Competency Lacking in Arbitrations
under the Consent Order ..........................................................................................7

CONCLUSION ................................................................................................................................8

iv

TABLE OF APPENDICES
APPENDIX A – OPINION OF THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT, FILED FEBRUARY 21, 2020
APPENDIX B – OPINION OF THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA, DATED JANUARY 2, 2019

v

TABLE OF CITED AUTHORITIES
CASES
Drope v. Missouri, 420 U.S. 162 (1975)......................................................................................6, 7
Hecht Co. v. Bowley, 321 U.S. 321 (1944) ......................................................................................8
Pigford v. Glickman, 185 F.R.D. 82 (D.D.C. 1999) ........................................................................1
Pigford v. Vilsack, 777 F.3d 509 (D.C. Cir. 2015) ..........................................................................2
Swann v. Charlotte-Mecklenburg Bd. of Educ., 402 U.S. 1 (1971) .................................................8

STATUTES AND OTHER AUTHORITIES
United States Const., Amend. V ......................................................................................................1
28 U.S.C. § 1254(1) .........................................................................................................................1
Rule 17 of the Federal Rules of Civil Procedure .............................................................................6

vi

CITATIONS TO OPINIONS BELOW
The opinion of the United States Court of Appeals for the District of Columbia Circuit,
which affirmed the United States District Court for the District of Columbia was not reported in
Fed.App’x. It is reprinted in the appendix at Appx. A. The Order of the United States District
Court for the District of Columbia was not reported in F. Supp. 3d. The District Court’s Order is
reprinted in the appendix at Appx. B.
BASIS FOR JURISDICTION
The judgment of the United States Court of Appeals for the District of Columbia Circuit
was entered as an unpublished opinion on February 21, 2020. The jurisdiction of the Supreme
Court of the United States is invoked under 28 U.S.C. § 1254(1).
This deadline for the filing of this Petition was extended by the March 19, 2020 Supreme
Court Order, 589 U.S, and is thus timely.
CONSTITUTIONAL PROVISION INVOLVED
“No person shall . . . be deprived of life, liberty, or property, without due process of law.”
United States Constitution, Amendment V.
INTRODUCTION AND STATEMENT OF THE CASE
Maurice McGinnis’ adversarial relationship with the compensation process under the
Consent Order in Pigford v. Glickman, 185 F.R.D. 82 (D.D.C. 1999) (the “Consent Order”)
began decades ago. The D.C. Circuit’s decision to sustain the District Court’s denial of
McGinnis’ Petition for Monitor Review of the Arbitrator’s summary dismissal of his claim is the
latest episode in this painful saga. See Appendices A and B.
It started twenty years ago with confusion and misdirection by the Government, which
initially treated his Track B arbitration claim as a Track A proceeding. The Government

1

vigorously opposed McGinnis’ request to recognize and treat his claim under the rules
established in the Consent Decree for a Track B arbitration. Ultimately, it required a final
decision from the D.C. Circuit in 2015 to establish that McGinnis was indeed entitled to a Track
B arbitration. Pigford v. Vilsack, 777 F.3d 509 (D.C. Cir. 2015).
Following years of frustration caused by the Government’s mistakes, compounded by an
adamant refusal to rectify its errors without lengthy judicial proceedings, McGinnis was left
confused and exhausted. Eventually, he lost perspective and his ability to make rational decisions
in regard to his claim suffered greatly.
In the course of the Track B arbitration it became known to the Government and the
Arbitrator that “McGinnis seriously misunderstood the nature of what he was required to do to
comply with the Track B process.” McGinnis made a series of irrational decisions not to engage
in or comply with the requirements of the procedural orders issued by the Arbitrator. McGinnis
refused to allow his attorney to exchange his expert’s report and direct testimony until June 30,
2016, and then testimony only in the form of a request that the Arbitrator adopt the prior rulings
of the Monitor on Review.
The government and Arbitrator were made aware on numerous occasions by McGinnis’
counsel that the task of making McGinnis understand his obligations in the Track B arbitration
was becoming increasingly difficult. The proceedings devolved from McGinnis refusing to
engage in settlement negotiations to demanding the Arbitrator to rule on the basis of an earlier
decision of the Monitor. The government and Arbitrator were updated regularly on the
developing impasse with McGinnis. At one stage the Arbitrator proposed to McGinnis’ counsel
that he speak to McGinnis directly, outside the presence of counsel, to encourage his co-

2

operation and explain his responsibilities to the arbitration. Unfortunately, McGinnis refused the
invitation.
The forceful intervention of his family ultimately convinced McGinnis to permit
submission of an expert report and testimony (the latter albeit in the form of prior factual rulings
by the Monitor). The Arbitrator granted as many extensions of time to meet deadlines as was
possible but ultimately was bound by the strict procedural time-frame for Track B hearings set
forth in the Consent Decree. The government’s mistakes, misdirection and delay caused
McGinnis to lose his reason, and yet it is the government that benefits from the ruling to dismiss
his claim for failure to meet procedural deadlines. Deadlines imposed in compliance with the
Consent Decree without regard to a claimant’s mental capacity to participate in the process.
The fact that McGinnis suffered a diminished capacity to make rational decisions in this
case was evident to all involved in the process, and is reflected in the Arbitrator’s discussion of
McGinnis’ behavior. McGinnis could not be convinced that he had not already prevailed in the
Track B proceeding. As he wrote in his narrative-form, direct testimony (which he insisted
counsel file in lieu of the required submissions): “RE: 35 years of Damage, Pain & Suffering,
Penalties and Fines . . . Discrimination 1981-2016: The YEARS keep getting longer. You have
treated me worse than anyone in this lawsuit. 35 years ago I was 30; and now I am 65 years old.
What kind of JUSTICE is this?”
McGinnis’ mistaken belief about the status of his case could not be shaken. McGinnis
continues, “[y]ou were instructed to pay me in January 2011, and to date (5 years later) you have
not awarded me the money due to me from the Black Farmers Settlement…On August 8, 2013,
the court handed down their first decision. On February 6, 2015, the court handed down their

3

second decision. The date of my deposition was March 3, 2016. Page 19 of the Consent Decree
says you have 30-60 days after this date to pay me.”
Obviously, McGinnis had no grasp on the process and a misapprehension that his prior
victories in the case convinced that he was entitled to an award without further proofs. On April
4, 2017, Derrick K. Jones (McGinnis’ nephew) was appointed Conservator for the person and
estate of McGinnis by the Chancery Court of Humphrey’s County, MS.
McGinnis’ inability to assist and co-operate in prosecuting his claim was raised
repeatedly and discussed at length between the parties and with the Arbitrator. The issue became
not whether McGinnis was competent, clearly his actions were irrational, but rather what could
be done about the situation given the limitations of the arbitration proceeding. At the same time,
perhaps naturally for an independent farmer, McGinnis was intransigent in the face of family
pressure to submit to a psychological examination and conservatorship. Given the Arbitrator’s
lack of authority to appoint a guardian ad litem, an enforcement action prior to Monitor review
before the District Court alleging “violation of any provision of [the] Consent Decree,” under
Section 13 of the Consent Order, was untenable in advance of a final award. The Arbitrator’s
dismissal of his claim finally convinced McGinnis to submit to a conservatorship. The State
court process to appoint Mr. Jones to that role was not an after-thought. It was urged on
McGinnis by his family for many months prior to becoming an actuality.
On April 12, 2017, McGinnis submitted a petition for monitor review requesting that the
monitor review the Track B arbitration award due to a clear and manifest error that resulted in a
fundamental miscarriage of justice, and direct the Arbitrator to reexamine his decision granting
the government’s motion for judgment as a matter of law. The district court declined to reappoint
the Monitor to review the case and granted the Government’s motion to dismiss on May 31, 2018

4

The district court granted McGinnis’ motion to substitute party on October 4, 2018. McGinnis
filed a renewed motion for reconsideration on October 31, 2018. The District Court denied the
renewed motion on January 2, 2019.
In the course of proceedings below, it was acknowledged by both the Arbitrator and the
district court that an arbitrator appointed under the Consent Decree lacks authority to appoint a
guardian ad litem. Indeed, the Arbitrator lacked authority to even stay proceedings in recognition
of McGinnis’ incapacity to assist counsel in prosecuting his claim.
REASONS FOR GRANTING CERTIORARI
1.

Competency Standards are Vital to the Fair Administration of Justice.
The Arbitrator himself emphasized that McGinnis was “confused” by his obligation to

participate: “McGinnis seriously misunderstood the nature of what he was required to do in the
Track B process.” McGinnis made a series of irrational decisions not to comply with the
requirements of the Consent Decree and the Revised Hearing Notice by not permitting an
exchange of his expert report on damages, and other direct testimony, until June 30, 2016.
Previously, in November 2015, the “Arbitrator was informed that efforts to settle were
foundering as a result of Claimant’s decision not to release to Defendant the economic damages
analysis prepared by his expert. Despite the efforts of Claimant’s counsel, the Arbitrator, and, the
cooperation of defense counsel, Claimant refused to permit release of the report . . .” Ultimately,
the Arbitrator ruled that McGinnis’ late-filed export report and testimony could not be used to
prove his case in chief because they were not timely filed. Since McGinnis lacked evidence to
prove his case in chief, the Arbitrator granted Defendant’s Motion for Judgment as a Matter of
Law. The strict application of procedural deadlines to a Claimant so obviously incompetent
resulted in a fundamental miscarriage of justice.

5

Due to his diminished mental capacity, a condition largely attributable to the more than
twenty-year ordeal McGinnis faced in these proceedings, McGinnis “lost his perspective . . .
because of his theories of various different conspiracies.” It became apparent in the course of
proceedings that McGinnis lacked the mental capacity to participate and instruct counsel in the
Track B arbitration proceeding. Fundamental justice required that a remedy be fashioned that
allowed the Arbitrator to re-set the proceedings under management of the conservator.
It cannot be denied that McGinnis’ interests were not placed in conservatorship prior to
the Arbitrator’s grant of judgment as a matter of law. But the District Court’s observation that it
could have been sought at an earlier stage failed to recognize the practical difficulties faced by
McGinnis’ family and counsel in first determining that guardianship was needed and then
convincing McGinnis to surrender his independence. Determining mental capacity is a
complicated and emotional process that requires professional assistance. Without the ability to
seek a guardian ad litem, McGinnis’ cooperation was absolutely necessary. It cannot be argued
that the Consent Decree does not authorize the Arbitrator to appoint a Guardian ad litem when
confronted with an incompetent claimant. Further, under Section 13 of the Consent Order, it is
not possible to seek an enforcement action in the District Court prior to a final award of the
Arbitrator.
The Consent Decree’s procedures for Track B claimants assume, apparently, the mental
capacity of claimants to conduct their own affairs throughout the length of the proceeding. This
was an oversight. Competency plays an important role in the adjudication of any case, criminal
or civil. See, generally, Drope v. Missouri, 420 U.S. 162 (1975); Rule 17 of the Federal Rules of
Civil Procedure. Arbitration is no exception. Indeed, the case for a competency standard in
arbitration is even more pressing given the binding nature and limited review of an arbitration

6

award. Dismissing the case of an incompetent party for failure to meet procedural deadlines is
fundamentally unfair and runs counter to the central values of the American judicial process,
which is designed to protect vulnerable parties and ensure a just outcome.
2.

Standards of Competency Lacking in Arbitrations under the Consent Order.
The field of arbitration has yet to set standards relating to a party’s competency, it is

simply assumed from the outset that parties to an arbitration proceeding are indeed competent.
Certainly, that is an assumption underlying the design of Track B arbitration proceedings in the
Consent Decree. The Consent Decree ignores entirely the concept of mental competency. The
Arbitrator lacked power to adjudicate the competency of McGinnis and appoint a guardian ad
litem. The Consent Decree did not permit immediate submission to the District Court because its
jurisdiction is limited to violations of “any provision” of the Consent Decree. Though McGinnis’
competency was questioned, the Arbitrator was constrained by the procedural deadlines of the
Consent Decree.
Proceeding with an arbitration when a party to the process lacks fundamental mental
capacities, as was eventually revealed in the conservatorship process, is unfair to the party and
runs counter to central values of the American judicial process, which is designed to protect
parties and achieve a just outcome. As the Supreme Court has noted in the criminal context, the
bar against trying a incompetent defendant is certainly “fundamental to an adversary system of
justice.” Drope v. Missouri, 420 U.S. 162, 172 (1975).
The Monitor’s review of an Arbitration award is limited to the record of the Track B
arbitration. McGinnis’ diminished capacity required an exercise of the District Court’s equitable
jurisdiction to right what is otherwise an unjust result. This Court has repeatedly emphasized that
courts are vested with extensive equitable powers to fashion appropriate remedies. For example,

7

in Swann v. Charlotte-Mecklenburg Bd. of Educ., 402 U.S. 1 (1971), the Court stated, “[o]nce a
right and a violation have been shown, the scope of a district court’s equitable powers to remedy
past wrongs is broad, for breadth and flexibility are inherent in equitable remedies.”
The essence of equity jurisdiction has been the “power of the [court] to do equity and to
mould each decree to the necessities of the particular case. Flexibility rather than rigidity has
distinguished it. The qualities of mercy and practicality have made equity the instrument for nice
adjustment and reconciliation between the public interest and private needs as well as between
competing private claims.” Hecht Co. v. Bowley, 321 U.S. 321, 329-330 (1944).
The arbitration procedure designed in the Consent Decree ignores the concept of mental
competency and lacks competency standards similar to this employed in the civil and criminal
contexts. This oversight left McGinnis without protections afforded litigants elsewhere and
resulted in a denial of fundamental justice.
CONCLUSION
WHEREFORE, the petition for a writ of certiorari should be granted.
Respectfully submitted,
MARIO B. WILLIAMS
NDH LAW
44 Broad Street, NW
Suite 200
Atlanta, GA 30303
(404) 254-0442
mwilliams@ndh-law.com
JOHN M. SHOREMAN
McFADDEN & SHOREMAN
1050 Connecticut Avenue, NW
Suite 500
Washington, DC 20036

8

APPENDIX A

USCA Case #19-5023

Document #1829480

Filed: 02/21/2020

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

Argued December 16, 2019

Decided February 21, 2020

No. 19-5023
TIMOTHY C. PIGFORD, ET AL.,
APPELLEE
v.
SONNY PERDUE, SECRETARY, UNITED STATES DEPARTMENT
OF AGRICULTURE,
APPELLEE
MAURICE MCGINNIS, BY HIS CONSERVATOR DERRICK K.
JONES,
APPELLANT
Consolidated with 19-5027
Appeals from the United States District Court
for the District of Columbia
(No. 1:97-cv-01978)
(No. 1:98-cv-01693)
John M. Shoreman argued the cause and filed the briefs for
appellant.

Page 1 of 12

USCA Case #19-5023

Document #1829480

Filed: 02/21/2020

2
Casen B. Ross, Attorney, U.S. Department of Justice,
argued the cause for appellee Sonny Perdue. With him on the
brief were Jessie K. Liu, U.S. Attorney, and Charles W.
Scarborough, Attorney. Jennifer L. Utrecht, Attorney, entered
an appearance.
Before: WILKINS, Circuit Judge, and WILLIAMS and
SENTELLE, Senior Circuit Judges.
Opinion for the Court filed by Senior Circuit Judge
SENTELLE.
SENTELLE, Senior Circuit Judge: Maurice G. McGinnis
brought this action to claim damages under the Consent Decree
created in the 1999 settlement between the Department of
Agriculture and a class of African American farmers. The
arbitrator responsible for adjudicating claims under the
Consent Decree denied McGinnis’s claim because he did not
timely submit evidence of racial discrimination. McGinnis
then petitioned the district court for “monitor review” of the
arbitrator’s decision. The district court denied that petition and
McGinnis’s two motions for reconsideration. Because we
agree with the district court that such review would have been
futile, we affirm the district court’s holding. We also affirm
the district court’s decision declining to modify the Consent
Decree under Federal Rule of Civil Procedure 60(b)(5).
I.
In 1997, three African American farmers, representing a
putative class of 641 African American farmers, filed a class
action lawsuit against the Department of Agriculture alleging
racial discrimination in denying their applications for farm
loans, credit and other benefit programs. Pigford v. Glickman,
185 F.R.D. 82, 86, 89 (D.D.C. 1999). The parties settled in

Page 2 of 12

USCA Case #19-5023

Document #1829480

Filed: 02/21/2020

3
1999 and agreed to a Consent Decree that would “ensure that
in the future all class members in their dealings with the USDA
will ‘receive full and fair treatment’ that is ‘the same as the
treatment accorded to similarly situated white persons.’” Id. at
95 (quoting J.A. 292).
The Consent Decree established two tracks for class
members to claim monetary damages: Track A and B. Id. On
Track A, a class member must “demonstrate[] by substantial
evidence that he was the victim of race discrimination.” J.A.
303. The class member submits the required documentation
and an adjudicator issues a decision. Id. at 303–06. If the
adjudicator determines that the USDA discriminated against
the class member, the adjudicator can “discharge all of the class
member’s outstanding debt to USDA” that was affected by
discrimination and grant the class member a cash payment of
$50,000. Id. at 304. Track A “provides those class members
with little or no documentary evidence with a virtually
automatic cash payment of $50,000, and forgiveness of debt
owed to the USDA.” Pigford, 185 F.R.D. at 95.
On Track B, class members have a higher evidentiary
hurdle: they must demonstrate that they were discriminated
against by a preponderance of the evidence. Id.; J.A. 308.
Class members submit a “claim package” to an arbitrator who
then schedules an evidentiary hearing. J.A. 306–07. The
hearing can include witnesses and exhibits to prove
discrimination. Id. at 307. Following the hearing, the arbitrator
issues a decision and can award actual damages and discharge
outstanding debt affected by discrimination. Id. at 308.
Because the arbitrator can award actual damages, class
members who pursue claims on Track B can receive much
more than the $50,000 available on Track A, but the
evidentiary standard required to show discrimination is higher.

Page 3 of 12

USCA Case #19-5023

Document #1829480

Filed: 02/21/2020

4
The Consent Decree makes the adjudicator’s decisions on
Track A and the arbitrator’s decisions on Track B “final.” Id.
at 306, 309. There is a narrow review provision that empowers
a “monitor” to direct the arbitrator or adjudicator “to reexamine
a claim where the Monitor determines that a clear and manifest
error has occurred . . . and has resulted or is likely to result in a
fundamental miscarriage of justice.” Id. at 311. “Generally,
the Monitor’s review will be based only on the Petition for
Monitor Review, any response thereto, the record that was
before the Facilitator, Adjudicator or Arbitrator, and the
decision that is the subject of the Petition for Monitor Review.”
Id. at 285. For Track B claims, “the Monitor will not be
permitted to consider additional materials on review or to
supplement the record for review upon reexamination.” Id. at
286.
Maurice G. McGinnis is an African American farmer from
Mississippi who sought but was denied farm credit from the
Department of Agriculture. Pigford v. Vilsack, 777 F.3d 509,
510 (D.C. Cir. 2015). In 1999, he initiated a claim under the
Consent Decree. Id. at 512. In an earlier phase of this
litigation, “the persons responsible under the Consent Decree
for processing his claim ignored or misinterpreted his clearly
expressed wishes” to proceed under Track B. Id. at 510. There
was extensive confusion between the claims facilitator, who
processed class member claims, and McGinnis as to whether
he was pursuing a claim under Track A or Track B. Id. at 512–
13. The facts and circumstances of that phase of the litigation
are more fully explained in Pigford, 777 F.3d at 512–13.
McGinnis was represented by his privately retained attorney
John M. Shoreman during part of that litigation. Pigford v.
Perdue, 330 F. Supp. 3d 1, 4 (D.D.C. 2018). As relevant for
this phase of the litigation, McGinnis was ultimately able to
submit his claim under Track B, as he intended. Pigford, 777
F.3d at 510, 518.

Page 4 of 12

USCA Case #19-5023

Document #1829480

Filed: 02/21/2020

5
On May 29, 2015, the arbitrator issued a formal hearing
notice for McGinnis’s Track B claim. Pigford, 330 F. Supp.
3d at 4. McGinnis was again represented by Shoreman. Id.
Before the scheduled hearing, the parties jointly requested
several stays of the proceeding while they discussed settlement.
Id. at 5. The settlement negotiations stalled because McGinnis
did not give Shoreman permission to disclose the expert report
supporting his claim of racial discrimination. Id. Several times
during December 2015, the parties and the arbitrator discussed
McGinnis’s reticence to disclose the expert report and
Shoreman’s efforts to convince his client to allow its release.
Id. The arbitrator even offered to speak with McGinnis ex
parte about releasing the report, and the government did not
object, but it is not clear if that conversation ever took place.
Id. Finally, on December 23, 2015, the arbitrator informed
Shoreman and the government that he would give McGinnis
until December 28, 2015, to release the report or he would
restart the schedule for a Track B arbitration. Id. at 5–6. When
the report was not released, the government proposed a
schedule for the proceeding including deadlines for filing
expert reports, direct testimony and legal memoranda, and for
completing discovery and depositions. Id. at 6. The
government also requested that, if McGinnis failed to meet the
deadlines, “he would be ‘precluded from offering any expert
report, testimony, or other expert evidence in this case.’” Id.
On January 21, 2016, the arbitrator issued a formal hearing
notice adopting the schedule proposed by the government and
set the hearing for July 20, 2016. Id. “The arbitrator’s formal
revised hearing notice made clear: ‘Should [McGinnis] fail to
provide an expert report [on or before February 11, 2016,] he
shall be precluded from offering any expert report, testimony,
or other expert evidence related to economic damages.’” Id.
(second alteration in original). McGinnis did not disclose his

Page 5 of 12

USCA Case #19-5023

Document #1829480

Filed: 02/21/2020

6
expert’s report or submit direct testimony, and neither he nor
his counsel sought to depose the government expert or take
discovery on the government’s expert report. Id. On June 30,
2016, Shoreman filed an “unsigned economic damages report,”
“a package of miscellaneous documents that included a threepage letter from Mr. McGinnis himself,” and other documents
with handwritten annotations. Id. at 7. On July 5, 2016, the
arbitrator excluded the damages report because it was not
timely. Id. He determined, based on the rest of the documents
filed at the same time, he would not hold a hearing. Id. On
December 13, 2016, the arbitrator released his decision
denying McGinnis damages because he “introduced no
evidence in support of his claim” of discrimination. J.A. 277–
78.
Approximately four months after the arbitrator’s decision,
in a state court proceeding, Derrick K. Jones was appointed as
conservator on behalf of McGinnis. J.A. 262 n.1; Pigford, 330
F. Supp. 3d at 7. Jones is McGinnis’s “nephew and long-time
personal attorney.” Pigford, 330 F. Supp. 3d at 14. Shortly
after Jones was appointed, Shoreman filed a petition for
monitor review of the arbitrator’s decision, “purportedly on
behalf of Derrick K. Jones.” Id. at 7–8. The petition asserts
that the arbitrator made a “clear and manifest error resulting in
a fundamental miscarriage of justice” when it denied
McGinnis’s claim. Id. Specifically, the petition asserts that
McGinnis’s failure to meet deadlines for the arbitration process
was attributable to his mental health conditions, which the
petition asserted from the record were obvious to the
participants in the process. Id. at 7–9.
The district court dismissed the petition for monitor
review. Id. at 14. It first explained that monitor review would
be futile because the monitor can direct a reexamination of the
decision only when there is a clear error based on the evidence

Page 6 of 12

USCA Case #19-5023

Document #1829480

Filed: 02/21/2020

7
in the record before the arbitrator. Id. at 11–12. Crucially, the
new evidence introduced as part of McGinnis’s competency
proceeding was not before the arbitrator and, therefore, could
not be considered during a reexamination. Id. Next, sua
sponte, the district court considered, but ultimately rejected,
modifying the Consent Decree under Federal Rule of Civil
Procedure 60(b)(5). Id. at 12–14. In reaching that conclusion,
the district court relied on Supreme Court precedent that a party
is bound by the conduct of voluntarily chosen counsel. Id. at
13 (citing Pioneer Inv. Servs. Co. v. Brunswick Assocs., 507
U.S. 380, 396–97 (1993); Link v. Wabash R.R. Co., 370 U.S.
626, 633–34 (1962)). The district court explained, “Because
Mr. McGinnis has been represented by Mr. Shoreman in this
matter since at least 2012, he is not entitled to a Rule 60(b)(5)
modification for any failures or mistakes made by his retained
counsel. Rather, he is bound by his agent’s acts and
omissions.” Id. (internal citation omitted).
McGinnis filed a motion for reconsideration on June 28,
2018, but the district court denied the motion without prejudice
on August 6, 2018, because Shoreman had not properly added
Jones, the conservator, as a party to the case. J.A. 234. After
the court granted Shoreman’s motion to substitute Jones as a
party, Shoreman filed a renewed motion for reconsideration on
October 31, 2018. Id. at 234–35. The motion did not assert
that there had been an intervening change in the law; instead,
“using language almost identical to that found in the original
petition,” the petition argued that the court should reconsider
its decision because it represented a “fundamental and manifest
injustice.” Id. at 236–37. The district court denied the renewed
motion for reconsideration on January 2, 2019, because the
motion merely retread the grounds in the original petition for
monitor review. Id. at 237–40. McGinnis filed a timely notice
of appeal on February 8, 2019, for both the dismissal of the

Page 7 of 12

USCA Case #19-5023

Document #1829480

Filed: 02/21/2020

8
petition for monitor review and the denial of the renewed
motion for reconsideration. See 28 U.S.C. § 1291.
II.
The district court’s decision to dismiss the petition for
monitor review represents an assessment that McGinnis’s
arguments failed to demonstrate a colorable claim that the
arbitrator committed a clear and manifest error. See Pigford,
330 F. Supp. 3d at 11–12. The district court undertakes a
similar analysis in the context of a motion to dismiss pursuant
to Federal Rule of Civil Procedure 12(b)(6) for failure to state
a claim: determining whether “[a] claim has facial
plausibility.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). As
the district court was considering whether McGinnis had a
claim under the Consent Decree and not interpreting said
decree, we will review the district court’s dismissal of
McGinnis’s petition for monitor review de novo, as we do for
12(b)(6) motions to dismiss. Capitol Servs. Mgmt., Inc. v.
Vesta Corp., 933 F.3d 784, 788 (D.C. Cir. 2019).
Next, we turn to McGinnis’s Federal Rule of Civil
Procedure 59(e) motion for renewed reconsideration. “A Rule
59(e) motion is discretionary and need not be granted unless
the district court finds that there is an intervening change of
controlling law, the availability of new evidence, or the need to
correct a clear error or prevent manifest injustice.” Ciralsky v.
CIA, 355 F.3d 661, 671 (D.C. Cir. 2004). We therefore review
denials of motions for reconsideration for abuse of discretion,
id., unless, in considering the motion, the district court also
reached the merits of a new argument or legal theory, Dyson v.
District of Columbia, 710 F.3d 415, 420 (D.C. Cir. 2013).
Because the district court did not address any new arguments,
J.A 236–40, we review the district court’s denial of the

Page 8 of 12

USCA Case #19-5023

Document #1829480

Filed: 02/21/2020

9
renewed motion for reconsideration for abuse of discretion,
Ciralsky, 355 F.3d at 671.
We also review the district court’s denial of relief under
Federal Rule of Civil Procedure 60(b)(5) for abuse of
discretion. Am. Council of the Blind v. Mnuchin, 878 F.3d 360,
366 (D.C. Cir. 2017).
A.
We agree with the district court that monitor review would
be futile because there was no evidence of McGinnis’s
incompetency in the record before the arbitrator. The record
contained evidence of McGinnis’s potential frustration and
confusion with the process, including: McGinnis’s refusal to
allow his attorney to release the expert report, Pigford, 330 F.
Supp. 3d at 5; the arbitrator’s offer to speak to McGinnis to
resolve his reluctance to release the report, id.; McGinnis’s
May 10, 2016 letter submitted to the arbitrator lamenting his
treatment during the proceeding, J.A. 265–66; McGinnis’s
failure to comply with the deadlines established by the
arbitrator, Pigford, 330 F. Supp. 3d at 6–7; and, finally, a
reference in the arbitrator’s decision that “McGinnis seriously
misunderstood the nature of what he was required to do in the
Track B process,” J.A. 275. But, as the district court explained,
these examples could indicate McGinnis’s frustration or
confusion with the process but do not raise an inference of
mental incompetence. Pigford, 330 F. Supp. 3d at 12.
There is also no evidence that Shoreman raised the issue
of McGinnis’s potential incompetence before the arbitrator
either by alerting the arbitrator or by moving to stay the case
pending conservatorship proceedings in state court. Nor does
Shoreman’s briefing explain why he failed to take action to

Page 9 of 12

USCA Case #19-5023

Document #1829480

Filed: 02/21/2020

10
protect his client’s interests if he believed that competency was
an issue.
The lack of evidence is crucial because the Consent Decree
permits only a limited review. The monitor may instruct the
arbitrator to reexamine the claim when there is a clear error in
the record, but the evaluation of error is limited to what was in
the record before the arbitrator. J.A. 285–86. These limitations
mean that the monitor cannot consider the new evidence from
medical evaluations of McGinnis and the competency
proceeding. Instead, the monitor could rely only on the
evidence of McGinnis’s conduct during the proceeding, like
the instances cited above. We agree with the arbitrator and the
district court that McGinnis’s actions could be interpreted as a
product of irrationality or confusion or frustration but do not
support an inference of incompetence. Thus, a monitor review
would be futile.
B.
The district court did not abuse its discretion when it
refused to modify the Consent Decree. See Pigford, 330 F.
Supp. 3d at 12–14. As the district court explained, Rule
60(b)(5) permits relief from a “final judgment, order, or
proceeding” if “applying it prospectively is no longer
equitable.” Fed. R. Civ. P. 60(b)(5). “Modification [of a
consent decree] is also appropriate when a decree proves to be
unworkable because of unforeseen obstacles.” Rufo v. Inmates
of Suffolk Cty. Jail, 502 U.S. 367, 384 (1992). One such
unforeseen obstacle could be an attorney’s failure to meet
deadlines. This court has recognized the vital importance of
competent representation for eligible farmers seeking damages
pursuant to the Consent Decree. Pigford v. Veneman, 292 F.3d
918, 925–27 (D.C. Cir. 2002). In fact, we modified the
deadlines in the Consent Decree when the class counsel failed

Page 10 of 12

USCA Case #19-5023

Document #1829480

Filed: 02/21/2020

11
to meet them. Id. at 925–26. But, importantly, in that decision,
the presumption that clients are bound by the mistakes of their
“voluntarily chose[n]” attorney, Link, 370 U.S. at 633, was
rebutted because the class counsel was appointed by the district
court, Veneman, 292 F.3d at 926. Because McGinnis
voluntarily chose his attorney, the presumption is not rebutted
on that ground. He is therefore bound by his attorney’s failure
to submit documents and memoranda by the arbitrator-imposed
deadlines. As a result, the district court did not abuse its
discretion when it declined to modify the Consent Decree
because Shoreman did not meet the arbitration deadlines.
McGinnis’s failure or inability to cooperate with his
attorney may be another unforeseen obstacle. But the district
court did not abuse its discretion in declining to modify the
Consent Decree because McGinnis’s alleged incompetence
made it impossible for him to cooperate with or supervise his
attorney.
The district court reasonably explained that
modification was not warranted for two reasons. First,
Shoreman never raised the issue of competency in the record.
Pigford, 330 F. Supp. 3d at 13–14. Second, modifying the
Consent Decree would lead to “a mini-trial on a matter
ancillary to the merits of this case”—namely Shoreman’s
“options for advancing [McGinnis’s] interests independent of
[his] relative competence.” Id. at 14. The district court further
noted that “any grievance Mr. McGinnis may have with his
counsel would be more properly resolved in a separate
malpractice action.” Id. In sum, the district court provided a
reasoned and reasonable explanation for its decision not to
modify the consent decree.

Page 11 of 12

USCA Case #19-5023

Document #1829480

Filed: 02/21/2020

12
III.
For the foregoing reasons, we affirm the district court’s
denial of the petition for monitor review and the denial of the
motion for reconsideration.

Page 12 of 12

APPENDIX B

Case 1:97-cv-01978-PLF Document 2081 Filed 01/02/19 Page 1 of 10

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

TIMOTHY PIGFORD et al.,
Plaintiffs,
v.

SONNY PERDUE, Secretary,
United States Department of Agriculture,
Defendant.

)
)
)
)
)
)
)
)
)
)
)

Civil Action No. 97-1978 (PLF)

-------------------------------- )
CECIL BREWINGTON et al.,
Plaintiffs,
v.

SONNY PERDUE, Secretary,
United States Department of Agriculture,
Defendant.

)
)
)
)
)
)
)
)
)
)
)

Civil Action No. 98-1693 (PLF)

____________ ____ )
MEMORANDUM OPINION AND ORDER
This matter is before the Court on the renewed motion for reconsideration
[Dkt. No. 2077] filed by Derrick K. Jones as Conservator ofthe person and estate of Maurice
McGinnis. 1 The Conservator's motion seeks reconsideration ofthe Court's opinion and order of

The Conservator's renewed motion for reconsideration was originally filed on
October 31, 2018 as Dkt. No.,2077. The Conservator filed an errata on November 5, 2018, in
which here-filed the same motion- dated October 31, 2018- with an amended exhibit as Dkt.
No. 2078. Based on the Conservator's representation that the only difference between the
original motion and the errata is the amended exhibit, the Court shall issue its ruling based on the
motion filed as Dkt. No. 2077.

Case 1:97-cv-01978-PLF Document 2081 Filed 01/02/19 Page 2 of 10

May 31, 2018, granting the government's motion to dismiss the petition for monitor review of
Mr. McGinnis's Track B arbitration claim. See Pigford v. Perdue, 330 F. Supp. 3d 1 (D.D.C.
2018). The government has filed a memorandum in opposition to the Conservator's renewed
motion for reconsideration, see Gov't Opp., and the Conservator filed a reply. See Reply.
Having considered the parties' arguments, the relevant legal authorities, and the entire record in
this case, the Court will deny the Conservator's renewed motion for reconsideration. 2

I. FACTUAL AND PROCEDURAL BACKGROUND
The Court's prior opinions summarize the factual and procedural history of this
case, beginning with Mr. McGinnis's Track A award and continuing through his Track B
arbitration proceeding. See,~. Pigford v. Vilsack, 961 F. Supp. 2d 82, 83-87 (D.D.C. 2013),
affd, 777 F.3d 509 (D.C. Cir. 2015); Pigford v. Perdue, 330 F. Supp. 3d at 3-9. The Court
therefore limits its discussion here to those facts relevant to the instant motion, which pertains to
Mr. McGinnis's Track B arbitration proceeding.
Throughout the course of his Track B arbitration proceeding, Mr. McGinnis was
represented by John M. Shoreman. See Pigford v. Perdue, 330 F. Supp. 3d at 4-8. According to
the Conservator, notwithstanding his representation by counsel, "[Mr.] McGinnis made a series
of irrational decisions not to comply with the requirements of the Consent Decree and the

2

The Court has reviewed the following filings in resolving the pending motion:
Conservator's Renewed Motion for Reconsideration ("Ren. Mot. Recon.") [Dkt. No. 2077];
Government's Opposition to the Conservator's Renewed Motion for Reconsideration ("Gov't
Opp.") [Dkt. No. 2079]; Conservator's Reply ("Reply") [Dkt. No. 2080]; Government's Motion
to Dismiss Mr. McGinnis's Petition for Monitor Review ("Mot. to Dismiss") [Dkt. No. 2057];
August 6, 2018 Memorandum Opinion & Order ("Mem. Op. & Order") [Dkt. No. 2069];
Consent Decree [Dkt. No. 167]; November 2, 2015 Stipulation and Order ("Stip. & Order")
[Dkt. No. 2008]; Petition for Monitor Review, Mot. to Dismiss Ex. 43 ("Pet. Mon. Review")
[Dkt. No. 2059 at 202]; Government's Motion for Judgment as a Matter of Law, Mot. to Dismiss
Ex. 36 ("Mot. J. Law") [Dkt. No. 2059 at 88]; and Arbitrator's Track B Decision, Mot. to
Dismiss Ex. 37 ("Arb. Decision") [Dkt. No. 2059 at 105].
2

Case 1:97-cv-01978-PLF Document 2081 Filed 01/02/19 Page 3 of 10

Revised Hearing Notice." See Ren. Mot. Recon. at 4. He and his counsel failed to meet
deadlines -even after they were rescheduled- and failed to provide a timely expert report or any
written testimony. See Pigford v. Perdue, 330 F. Supp. 3d at 4-7. After a series of extensions of
time granted by the Arbitrator, the government moved for judgment as a matter of law, arguing
that Mr. McGinnis had not introduced any evidence and had not "articulate[d] the bases for his
discrimination claims or the source and nature of any alleged economic damages." See Mot. J.
Law at 89. On December 13, 2016, the Arbitrator granted the government's motion for
judgment as a matter of law and denied Mr. McGinnis's Track B claim, reasoning that "[Mr.
McGinnis] ha[d] neither demonstrated by a preponderance of the evidence that [the] USDA
discriminated against him, nor ha[ d] he established any damages." See Arb. Decision at 111; see
also Pigford v. Perdue, 330 F. Supp. 3d at 7.
On April 12, 2017, Mr. Shareman submitted a petition for monitor review of the
Arbitrator's decision purportedly on behalf of Derrick K. Jones, the alleged conservator of Mr.
McGinnis's person and estate. See Pet. Mon. Review at 202; see also Pigford v. Perdue, 330 F.
Supp. 3d at 7-8. The initial petition for monitor review "[did] not dispute that Mr. McGinnis
repeatedly failed to meet deadlines and, as a result, did not submit sufficient evidence to prove
his claim by a preponderance of the evidence. Rather, the petition assert[ed] that these failures
resulted from Mr. McGinnis's diminished mental capacity and deteriorating ability to assist his
counsel, issues which assertedly arose due to the stressful and long-running nature of the case."
See Pigford v. Perdue, 330 F. Supp. 3d at 8. The petition concluded that because "[t]he strict
application of procedural deadlines to a Claimant so obviously incompetent resulted in a
fundamental miscarriage of justice," the Monitor should direct the Arbitrator to re-examine his
decision to grant the government's motion for judgment and to re-set procedural deadlines so

3

Case 1:97-cv-01978-PLF Document 2081 Filed 01/02/19 Page 4 of 10

that Mr. McGinnis's Track B arbitration claim could proceed under the direction of Mr.
McGinnis's conservator. See Pet. Mon. Review at 207-08.
The government moved to dismiss the petition for monitor review of Mr.
McGinnis's Track B arbitration claim. The matter was fully briefed and the Court granted the
government's motion on May 31,2018. See Pigford v. Perdue, 330 F. Supp. 3d at 12. 3 In so
deciding, the Court declined to reappoint the Monitor- who had been released from her duties
under the Consent Decree in March 2012 - and to direct her to review the petition because "there
[was] simply insufficient evidence in the relevant record [before the Arbitrator] of Mr.
McGinnis's alleged mental incapacity to support a finding by the monitor that 'clear and
manifest error' ha[d] resulted or [was] likely to result in 'a fundamental miscarriage of justice."'
See id. at 12; see also Stip. & Order at~ 1(a)(5). 4
Mr. Shareman subsequently filed a motion for reconsideration [Dkt. No. 2067] of
the Court's opinion and order by and through Derrick K. Jones, the alleged conservator of the
person and estate of Mr. McGinnis. The Court denied that motion without prejudice on August
6, 2018, because Mr. Jones had not been substituted as a party in this case pursuant to Rule 25(b)

3

The Court noted then and reiterates now that this matter may be more properly
resolved in a separate malpractice action against Mr. Shareman. See Pigford v. Perdue, 330 F.
Supp. 3d at 14; Mem. Op. & Order at 2.
According to the Court's wind-down stipulation and order issued on November 2,
2015, the Monitor was released from her duties under the Consent Decree on March 31, 2012.
See Stip. & Order at~ 1(a)(5); Pigford v. Vilsack, 330 F. Supp. 3d at 11. The wind-down
stipulation and order explicitly provided for her potential reappointment with respect to Mr.
McGinnis's claim: "In the event that a Track B hearing is ever conducted in the matter of
Maurice McGinnis, the Court may request that the Monitor resume her duties in the future for
the limited purpose of reviewing any Petition for Monitor Review of the Arbitrator's decision in
that matter." See Stip. & Order at ~1 (a)(5).
4

Case 1:97-cv-01978-PLF Document 2081 Filed 01/02/19 Page 5 of 10

of the Federal Rules of Civil Procedure. See Mem. Op. & Order. 5 The Court has since granted
[Dkt. No. 2075] Mr. Jones's motion for substitution of party [Dkt. No. 2070], and Mr. Jones has
been properly substituted for plaintiff Maurice McGinnis as a party to this action.
Pursuant to the Court's order, Mr. Jones, as Conservator, filed a renewed motion
for reconsideration on October 31, 2018 on behalf of the estate of Mr. McGinnis. See Ren. Mot.
Recon. The Conservator's renewed motion for reconsideration- now before the Court- asks the
Court to reconsider under Rule 59(e) of the Federal Rules of Civil Procedure its order and
opinion of May 31, 2018. See Ren. Mot. Recon. at 7. He requests that the Court deny the
government's motion to dismiss the petition for monitor review. See Ren. Mot. Recon. Proposed
Order [Dkt. No. 2077-3].

II. LEGALSTANDARD
The Conservator has styled the instant motion as a motion for reconsideration
pursuant to Rule 59( e) of the Federal Rules of Civil Procedure. See Ren. Mot. Recon. at 5.
Although the Federal Rules of Civil Procedure have no rule specifically addressing motions to
reconsider, "[t]he D.C. Circuit has stated that motions to reconsider are routinely construed as

Justice, 312 F. Supp. 2d 17,20 (D.D.C. 2004). After entry of judgment, a timely motion for
reconsideration under Rule 59( e) may be filed to "alter or amend [the] judgment." See FED. R.
Crv. PRO. 59(e).

In denying without prejudice Mr. McGinnis's first motion for reconsideration, the
Court also admonished Mr. Shoreman for purportedly filing a motion on behalf of Mr. Jones as
Conservator while simultaneously attaching a document as an exhibit to that motion in which
Mr. Jones purports to be proceeding prose. See Mem. Op. & Order at 3. The Court cautioned
Mr. Shoreman that such a contradiction not only violated the Federal Rules of Civil Procedure,
but also may have constituted violations of Mr. Shareman's professional and ethical obligations.
See id.
5

Case 1:97-cv-01978-PLF Document 2081 Filed 01/02/19 Page 6 of 10

The Supreme Court has explained that Rule ·59(e) was enacted to allow a district
court "to rectify its own mistakes in the period immediately following the entry of judgment."
See White v.

.H. Dept ofEmp't Sec., 455 U.S. 445, 450 (1982). But Rule 59( e) "may not be

used to relitigate old matters, or to raise arguments or present evidence that could have been
raised prior to the entry of judgment." See Exxon Shipping Co. v. Baker, 554 U.S. 471,485 n.5
(2008); see also Piper v. U.S. Dep' t of Justice, 312 F. Supp. 2d at 21 ("Rule 59( e) motions are
not granted if the court suspects the losing party is using the motion as an instrumentality of
arguing the same theory or asserting new arguments that could have been raised prior to final
judgment."). A Rule 59( e) motion, therefore, "is discretionary and need not be granted unless
the district court finds that there is [ 1] an intervening change of controlling law, [2] the
availability of new evidence, or [3] the need to correct a clear error or prevent manifest
injustice." See Dyson v. District of Columbia, 710 F.3d 415,420 (D.C. Cir. 2013) (quoting
Ciralsky v. Cent. lnte1Ugenc Agency, 355 F.3d 661,671 (D.C. Cir. 2004)); see also Firestone v.
Firestone, 76 F.3d 1205, 1208 (D.C. Cir. 1996).

III. DISCUSSION
As noted, the Court may grant the Conservator's motion to reconsider its prior
decision to dismiss the petition for monitor review of Mr. McGinnis's Track B claim if it "finds
that there is [1] an intervening change of controlling law, [2] the availability of new evidence, or
[3] the need to correct a clear error or prevent manifest injustice." See Dyson v. Di tl'ict of
Columbia, 710 F.3d at 420 (quoting Ciralsky v. Cent. Intelligence Agency, 355 F.3d at 671). In
his motion, the Conservator does not suggest that there has been an intervening change of
controlling law or that new evidence has become available since the Court's May 31, 2018
decision. Instead, using language almost identical to that found in the original petition, the
6

Case 1:97-cv-01978-PLF Document 2081 Filed 01/02/19 Page 7 of 10

Conservator argues that the Court should reconsider its decision because "under the
circumstances of this case[,] the Arbitrator's strict application of procedural deadlines to a
Claimant so obviously incompetent resulted in a fundamental and manifest injustice." See Ren.
Mot. Recon. at 5. The only question before the Court now, therefore, is whether it must reverse
its prior decision in order to prevent this alleged manifest injustice.
A Rule 59( e) motion to reconsider- even one based on asserted manifest injustice
- is not simply an opportunity to reargue facts and theories upon which a court has already ruled.
See State of N.Y. v. United tates, 880 F. Supp. 37, 38 (D.D.C. 1995) (per curiam); see also
Pearson v. Thompson, 141 F. Supp. 2d 105, 107 (D.D.C. 2001) ("A motion for reconsideration
will not be granted if a party is simply attempting to renew factual or legal arguments that it
asserted in its original briefs and that were already rejected by the Court."); O.R. v. Hunter, 576
F. App'x 106, 110 (3d Cir. 2014) ("[Rule 59( e) cannot be employed to re-relitigate ...
already-denied motions."). Nor is it a "vehicle for presenting theories or arguments that could
have been advanced earlier." See Klaym::m v. Judicial Watch. lnc., 296 F. Supp. 2d 208,213-14
(D.D.C. 2018) (quoting Estate of Gaither ex rel. Gaither v. District of Columbia, 771 F. Supp. 2d
5, 10 & n.4 (D.D.C. 2011)). The Court must deny the Conservator's motion because that is
precisely what the Conservator attempts to do here.
The Conservator relies upon the same reasoning that was put forth in the original
petition for monitor review. He has not addressed and does not dispute the reasons that the Court
gave for granting the government's motion to dismiss in the first instance. See Ren. Mot. Recon;
see also Gov't Opp. at 4-7. The only difference between the original petition for monitor review
and the Conservator's motion for reconsideration is that Mr. Jones now has been properly
substituted as a party to the case. As in the original petition, the Conservator argues that "[i]t is

7

Case 1:97-cv-01978-PLF Document 2081 Filed 01/02/19 Page 8 of 10

manifestly unjust, under these circumstances, not to permit the Track B arbitration to re-convene
under the direction of the Conservator to allow McGinnis to finally recover his just
compensation for years of past discrimination by the government." See Ren. Mot. Recon. at 6;
Pet. Mon. Review at 207. It can be inferred from the Conservator's motion that he believes that
the Arbitrator would reach a different conclusion if he reinitiated review of Mr. McGinnis's
Track B claim now that Mr. Jones has been substituted for Mr. McGinnis as a party to this case.
Without more, the Court declines to award the Conservator a second bite at the apple.
The Court has already ruled on the arguments made by the Conservator. And the
problem for the Conservator- and ultimately for Mr. McGinnis- remains the same: The
Consent Decree dictates the outcome here. As the Court has explained repeatedly, it has no
authority to "grant vacatur of the arbitrator's decisions and resurrection of the claimants' Track B
claims." See Pigford v. Vilsack, 78 F. Supp. 3d 247, 250 (D.D.C. 2015) (quoting Abrams v.
Vilsack, 655 F. Supp. 2d 48, 52 & nn. 4-5 (D.D.C. 2009)). The sole exception to this robust
finality was provided in Paragraph 12(b)(iii) of the Consent Decree, under which the Monitor
was given the limited power, on petition of a party, to review an arbitrator's decision and to
direct the arbitrator to reexamine a claim where the Monitor determines that a clear and manifest
error has occurred in the arbitration and has resulted or is likely to result in a fundamental
miscarriage of justice. See Pigford v. Vi! sack, 78 F. Supp. 3d at 251; Consent Decree
~

12(b)(iii). Accordingly, the Court's role in responding to Mr. McGinnis's challenge to the

Arbitrator's decision is very limited. It has the authority to decide only whether there is reason
to reappoint the Monitor to consider the petition for review. The Court decided previously that
there is no such reason because reappointing the Monitor for this purpose would be in vain. See
Pigford v. Perdue, 330 F. Supp. 3d at 11-12. Nothing has changed.

8

Case 1:97-cv-01978-PLF Document 2081 Filed 01/02/19 Page 9 of 10

The Consent Decree dictates that the Monitor- in determining whether to order
the Arbitrator to reexamine a Track B claim - is permitted to consider only the record that was
before the Arbitrator at the time of the Arbitrator's initial Track B determination. See Pigf .rd
Perdue, 330 F. Supp. 3d at 11; see also Court Order of Reference~ 8(e)(ii) [Dkt. No. 279] ("[I]n
Track B claims, the Monitor will not be permitted to consider additional materials on review or
to supplement the record for review upon reexamination."). Once again, this limitation would
render monitor review futile. The Monitor would not be able to consider any evidence of Mr.
McGinnis's diminished capacity that was not before the Arbitrator when it denied Mr.
McGinnis's claim. And just as the Court reasoned when it granted the government's motion to
dismiss, so too here there is "simply insufficient evidence" in the record developed before the
Arbitrator of Mr. McGinnis's alleged mental incapacity to support a finding by the Monitor that
"'clear and manifest error' has resulted or is likely to result in 'a fundamental miscarriage of
justice."' See Pigford v. Perdue, 330 F. Supp. 3d at 12. 6 The fact that the Conservator has
replaced Mr. McGinnis would not result in the different outcome that the Conservator seeks.
Even if the Monitor could consider the additional evidence and arguments
presented in the Conservator's motion to prove Mr. McGinnis's incapacity, the Court agrees with.
the government that the Conservator still has not "demonstrated (or even suggested) any

6

The parties dispute whether Mr. McGinnis's diminished mental capacity was
raised and preserved for the record during the course of the arbitration proceeding. See Reply
at 1; Gov't Opp. at 4, 6. The Court has already decided this issue. It concluded that there was
"some evidence which was before the arbitrator ... that would have indicated to the arbitrator
that Mr. McGinnis was both frustrated with the handling of his claim and possibly co_nfused
about its status. But this would not necessarily lead one to infer that Mr. McGinnis was mentally
incompetent. More importantly, it does not explain why his counsel did not raise the issue of
competence with [the Arbitrator] at any point during the arbitration process." See Pigford v.
Perdue, 330 F. Supp. 3d at 11-12, 9 n.S.

9

Case 1:97-cv-01978-PLF Document 2081 Filed 01/02/19 Page 10 of 10

connection between Mr. McGinnis's supposed 'incompetence' and [Mr. Shareman's] failure to
meaningfully prosecute Mr. McGinnis's claims." See Gov. Opp. at 4. 7
Ordering the Monitor to reexamine the Arbitrator's decision could not prevent or
correct the alleged injustice that has befallen Mr. McGinnis. No evidence was before the
Arbitrator of Mr. McGinnis's supposed mental incapacity and no such explanation was provided
to the Arbitrator for his or his counsel's failure to comply with the terms of the Consent Decree
and the deadlines imposed (and generously extended) by the Arbitrator. While it is possible that
..
Mr. McGinnis's alleged incapacity may have played a role in his Tack B arbitration process, the
Court must enforce the terms of the Consent Decree. The Conservator has failed to make any
new arguments, and the Court will not allow him tore-litigate the already-dismissed petition.
For the foregoing reasons, it is hereby
ORDERED that the Conservator's Renewed Motion for Reconsideration [Dkt.
No. 2077] is DENIED.
SO ORDERED.

United States District Judge

7

Instead, the Conservator "submits it is unfair to hold counsel responsible for the
Consent Decree's failure to make provision for mental incapacity affecting a claim in the middle
of arbitration proceedings." See Ren. Mot. Recon. at 4. Even if the Court were to agree, the
Conservator has not provided any explanation for Mr. Shareman's failure to preserve Mr.
McGinnis' incompetence for the record or to abide by the deadlines imposed by the Arbitrator
during the Track B proceedings, even after they were amended. See Pigford v. Perdue, 330 F.
Supp. 3d at 9 n.5.
10

